OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ARMENIA’S
ENERGY AND WATER SECTOR
REFORM PROGRAM
AUDIT REPORT NO. 8-111-07-002-P
June 26, 2007




FRANKFURT, GERMANY
      Office of Inspector General


June 26, 2007

MEMORANDUM

TO:             USAID/Armenia Mission Director, Robin Phillips

FROM:           Regional Inspector General, Frankfurt, Gerard M. Custer /s/

SUBJECT:        Audit of USAID/Armenia’s Energy and Water Sector Reform Program
                (Report Number 8-111-07-002-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report, making changes where appropriate, and have
included your comments in their entirety in Appendix II.

The report contains two recommendations. In your written comments you concurred with these
recommendations and also provided evidence of specific actions taken to address our
concerns. Therefore, we consider that final action has been taken on each recommendation.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objective ............................................................................................................ 2

Audit Findings ................................................................................................................. 3

     Program Outputs Need to Be More
     Closely Monitored ....................................................................................................... 6

     Program Files Were Not Always
     Properly Maintained .................................................................................................... 8

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13
SUMMARY OF RESULTS
USAID/Armenia’s Energy and Water Sector Reform Program (the Program) seeks to
provide: energy security that does not rely on unsafe nuclear power; critical energy and
water infrastructure to support economic growth and jobs; and reliable and affordable
access to essential utilities for all Armenians. This audit was designed to determine if
the Program was achieving its planned outputs. (See page 2.)

During the period August 2005 to January 2007, USAID/Armenia’s Energy and Water
Reform Program achieved most, but not all, of its planned outputs. Of the 145 total
planned outputs during this period, which were selected for testing, 101 (or 70 percent)
were determined to have been fully or substantially completed. Most of these were
associated with five of the Program’s major projects, which were making acceptable
progress towards achieving both their planned outputs and their overall objectives. The
Program’s overall performance, however, was negatively impacted as a result of a major
residential heat project that did not achieve the majority of its planned outputs and was
eventually terminated. Because the Mission had already terminated this project, we are
making no recommendation for corrective action. (See pages 3-5.)

Two other matters that came to our attention during the course of the audit did require
corrective action by USAID/Armenia. Specifically, the Mission was not always closely
tracking the actual delivery of outputs produced by implementing partners as specified in
contract documents and work plans to ensure that expected results were being
achieved. (See pages 6-7.) In addition, the Mission needed to better document
program activities in the official files. The Mission’s program files, for example, did not
always document trip reports and substantive project changes. As a result, the program
files did not include a complete history of the program and were, therefore, of limited use
as a management tool in facilitating program oversight and ensuring program continuity
when personnel changes occurred. (See pages 8-9.)

To address these matters, the report contains two recommendations for the Mission to:

      Amend an existing Mission Order to ensure that (a) program staff periodically
       compare actual performance to planned accomplishments under the program’s
       contracts, grants, and cooperative agreements; (b) the results of these
       assessments are subject to management review; and (c) program staff utilize
       performance data generated and collected under each implementer’s Monitoring
       and Evaluation Plan in facilitating these assessments. (See page 7.)

      Take appropriate steps to ensure that program staff fully implement and adhere
       to the documentation maintenance guidance specified in its existing Mission
       Order prescribing program monitoring procedures. (See page 9.)

In response to our draft report, USAID/Armenia concurred with the recommendations
and took action to address our concerns. Specifically, the Mission strengthened its
procedures for collecting and reviewing performance data, and ensuring program
documentation is properly maintained in the official files. Based on this action, we
consider the recommendations closed upon issuance of this report. (See page 10.)

Management comments are included in their entirety in Appendix II.

                                                                                         1
BACKGROUND
Proper management of Armenia’s physical resources―particularly energy and water―is
critical to the country’s economic growth and sustainable development.
USAID/Armenia’s Energy and Water Sector Reform Program seeks to achieve three
major goals in Armenia: (1) promote energy security to reduce the country’s reliance on
unsafe nuclear power; (2) provide critical power and water infrastructure for economic
growth and jobs; and (3) ensure reliable and affordable access to essential utilities for all
Armenians. Towards these goals, the Program includes activities intended to promote
the institutional development of the governing bodies of the energy and water utilities
and the development of reliable and accessible public utilities.

As of FY 2006, the Mission’s program portfolio consisted of six major projects with a total
life-of-project funding level of approximately $26 million, as shown in the chart below.

                          USAID/Armenia Energy and Water Projects
                                  (As of December 31, 2006)

                                                                    Lifetime       Start   End
            Project                      Primary Goal                 Cost         Date    Date
                                                                    ($ millions)
    Armenian Energy             Extend and consolidate energy
    Assistance Project          sector reforms and restructuring        9.46       2/04    9/08
    Armenian Water              Reform and improve the
    Development Project         performance of Armenia’s water          6.96       9/04    9/07
                                sector
    Heat Assisted Education     Provide reliable heating systems
    in Armenia Project          and lavatories in schools               1.91       9/05    9/07
    Energy Efficiency and       Increase economic and
    Heat Pilot Projects         environmental efficiency while          3.67       9/03    4/07
                                diversifying energy sources
    Armenian Energy             Facilitate exchanges between
    Partnership Project         U.S. and Armenian energy,               0.70       6/06    6/08
                                water, and telecom groups
    Improved Heat Sector        Demonstrate efficient heat
    Management & Delivery       supply solutions with reduced           3.14       7/05    12/06
    of Heat Supply Project      environmental costs
                                                            Total     25.84

AUDIT OBJECTIVE
As part of its fiscal year 2007 audit plan, the Regional Inspector General/Frankfurt
conducted this audit to answer the following question:

     Did USAID/Armenia’s Energy and Water Sector Reform Program achieve its
      planned outputs for promoting reliable and affordable access to essential
      utilities?

Appendix I contains a discussion of the audit’s scope and methodology.


                                                                                             2
AUDIT FINDINGS
During the period August 2005 through January 2007, the Energy and Water Sector
Reform Program achieved many, but not all, of its planned outputs. Specifically, five of
the Program’s six major projects, achieved at least 75 percent of their planned outputs
and were judged to be on track to achieve their planned overall objectives. The sixth
project, however, achieved only 44 percent of its planned outputs and was terminated by
the mission. Details regarding these projects are described below.

Armenian Energy Assistance Project This project provides assistance to the
Government of Armenia (GOA) to extend and consolidate its energy sector reforms and
restructuring. The project seeks (1) improved transparency to reduce opportunities for
corruption (2) improved quality of service delivered to customers, and (3) better
management and use of Armenia's scarce energy resources, with an emphasis on
greater efficiency and environmental sustainability.

The project completed or substantially completed 18 of the 21 planned activities
(outputs) specified in the implementer’s FY 2006 work plan, including extensive support
for Armenian counterpart organizations and the completion of a major study to identify
safer alternatives for an ageing nuclear facility. The project also financed 26 energy
efficiency demonstration projects.        However, the progress of three project
activities─activities related to public outreach and education efforts─could not be
assessed, as the work steps in the implementer’s annual work plan were not sufficiently
detailed to permit evaluation. USAID/Armenia staff agreed to correct this problem in the
future by requiring more detailed work steps in the work plan for these activities.




 Photograph of a gas boiler installed in a maternity hospital in Yerevan, Armenia, as part of the Armenian
 Energy Assistance Project, March 2007.




                                                                                                             3
Armenian Water Development Project This project was designed to extend national
reforms and improve the performance of Armenia’s water sector management and
regulatory institutions. The project provides assistance related to water resource
management, protection and use, and the regulation of water-using public services.

The project successfully completed 15 of the 20 activities in its approved work plan
covering the period from November 2005 through October 2006. These successfully
completed activities included the development of a draft law on drinking water, the
rehabilitation of numerous water monitoring stations, and assistance with the
development of a water tariff policy and guidelines for municipal water services. Among
the remaining five activities, three were delayed pending a final decision by the GOA on
staff resources, water funding and monitoring responsibilities. Two other activities
required more time than anticipated and were shifted to the 2007 work plan.




   Photograph of a water monitoring station     Photograph of an Armenian school’s new
   rehabilitated by the USAID-funded Water      heating system provided under the Heat
   Development Project, March 2007.             Assisted Education Project, March 2007.

Heat Assisted Education in Armenia Funding under this project was used to provide
reliable heating systems and lavatories for primary and secondary schools targeted
throughout Armenia. The project successfully completed renovation activities at 31 of
the 34 schools included in the implementing partners’ work plans covering the period
from September 2005 through December 2006. Renovation projects for 3 of the 34
schools encountered delays related to funding and site selection, but are expected to be
completed during 2007.

Energy Efficiency and Heat Pilot Projects The objectives of this project are to (1)
increase economic and environmental efficiency in the energy sector by demonstrating
the cost-effectiveness of integrated solutions and (2) identify more diversified energy
sources both by reducing electricity and identifying economically viable renewable
energy resources. The project successfully completed 12 of 15 planned activities
funded under two separate contracts. Among the completed activities, the implementer
successfully completed 21 pilot projects─considerably more than the 7 to 10 projects
anticipated in the contract documentation. In addition, as part of the public outreach
activity, the project produced two documentaries and four public service announcements
for broadcast on local Armenian television. The three planned activities that were not
completed were expected to be completed during 2007.
                                                                                          4
Armenian Energy Partnership This project is intended to create ongoing information
exchange partnerships between U.S. and Armenian energy, water, and
telecommunication organizations. These exchanges are expected to enhance the
effectiveness and efficiency of Armenia’s energy sector organizations.

Under this project, the implementer planned to hold five training seminars between June
and December 2006; however, only three seminars were held during this time frame,
with the remaining seminars delayed until 2007. The delays occurred when a Russian
company bought a considerable interest in Armenia’s energy infrastructure, requiring
changes to the training schedule to ensure that the project supported only Armenian
beneficiaries.

For the three seminars held in 2006, follow-up reports from the attendees─considered to
be a key deliverable, according to the contract─had not been submitted to the
implementer or to the Mission. Further investigation found that no mechanism for
developing or obtaining these reports had been included in the work plan. Mission and
implementer officials stated that the work plan would be modified to ensure that
attendees developed and submitted these post-training reports.

Improved Heat Sector Management and Delivery of Heat Supply Project              This
project sought to promote energy security in Armenia by demonstrating a full range of
heat supply alternatives that would reduce heating costs through effective management
while also reducing environmental damage.

During the period from August 2005 through July 2006, the project completed only 22 of
the 50 activities specified in its work plan. Completed activities included an assessment
of energy legislation, an operational manual for cooperative management of residential
heating systems, and a short and long term communications strategy in support of the
project’s goals. Key activities that were not completed included media training sessions,
an assessment on policies and the framework for promotion of local heat supply
companies, and a list of heat energy project concepts to be compiled in collaboration
with the World Bank, UNDP, and other stake holders.

The project’s lack of progress resulted from several factors. For example, the contract
contained a relatively broad statement of work which, while allowing for flexibility during
implementation, also gave rise to differences of opinion regarding strategy and direction
for many of the project’s activities. Although the Mission made numerous attempts to
bridge these differences with the implementing partner, these efforts had limited
success. Agreement on the implementation strategy was made more difficult by the
departure of and changes among key Mission and contractor staff, both before and
during contract implementation. Thus, while some project activities moved forward,
others remained stalled. In light of these continuing difficulties, the Mission initially
focused on completing those few activities that had been successfully initiated and were
in progress and eventually terminated the contract with the implementing partner. In
light of the fact that the Mission has already taken corrective action, we are not issuing a
formal recommendation with regards to the uncompleted work under this project.




                                                                                          5
Program Outputs Need to Be
More Closely Monitored
 Summary: USAID’s Automated Directive System (ADS) 202.3.6 states that missions
 should monitor the quality and timeliness of outputs produced by implementing
 partners as described in the contract Statements of Work. Additionally, bureau
 guidance requires missions to periodically compare planned and actual results under
 each contract. USAID/Armenia’s program staff, however, were not always performing
 periodic comparisons of expected and achieved results so as to ensure that all
 planned deliverables would be achieved. This was attributed, at least in part, to the
 fact that USAID/Armenia’s internal implementing guidance did not specifically require
 close tracking of contract outputs. Unless the Mission closely monitors the status of
 outputs, projects will have an increased risk of not achieving their objectives.


According to ADS 202.3.6, monitoring the quality and timeliness of outputs produced by
implementing partners is a major task of Cognizant Technical Officers (CTOs). The ADS
notes that these outputs should be specifically described in contract Statements of Work.
Europe and Eurasia Bureau Operating Procedure (BOP) 311 provides additional
guidance, requiring missions to describe how they will monitor and document the
performance of USAID-funded activities. Specifically, this guidance states that
performance information must compare actual performance against planned results and
accomplishments for each contract, grant, and cooperative agreement. USAID/Armenia
contracts require implementers to submit detailed work plans stating the activities and
related outputs to be completed during the contract period.

However, USAID/Armenia’s program staff for the Energy and Water Sector Reform
Program were not always effectively tracking program activities so as to ensure that all
planned outputs specified in the implementing partners’ annual work plans would be
achieved. For example, although the Energy Partnership contract (SOW) emphasized
that training participants would be responsible for certain deliverables─in this case,
written reports demonstrating how the training benefited the recipient organizations─no
such reports had yet been obtained, and the mechanism for ensuring the collection of
these reports had not been included in the contractor’s annual work plan.

Furthermore, work plans did not always adequately describe the work to be completed.
In reviewing the planned activities outlined in the contractor’s annual work plan for one of
the projects (Energy Assistance Project), we identified three listed activities—related to
public outreach efforts—which provided insufficient detail to evaluate the activities’
progress. The work plan simply described the activities as three broad program goals
without providing specific information about the tasks to be completed to achieve these
goals. As a result, neither the auditors nor the Mission were able to evaluate whether
these public outreach efforts had progressed as intended during FY 2006.

Finally, one major project did not have a Monitoring and Evaluation (M&E) Plan to
facilitate tracking of outputs. According to the Mission’s Contracting Officer, the use of a
specific clause requiring the development of an M&E plan represented a “best practice”
that should be included in all major contracts. However, due to an oversight during the
contract review phase, the specific language requiring an M&E plan was not included in
the Energy Efficiency and Heat Pilots contract.



                                                                                          6
This lack of specific attention to the achievement of outputs was attributed to
USAID/Armenia’s guidance on its internal monitoring procedures—specifically, the lack
of emphasis this guidance placed on the monitoring of outputs. These internal
procedures are documented in USAID/Armenia Mission Order (MO) 1003, which did not
specifically require the periodic comparison of expected project outputs with actual
achieved results. Instead, MO 1003’s guidance for the review of contract outputs was
very general, noting only that staff will “consider performance at all levels, and report
major issues” for consideration by Mission management. Consequently, the guidance
did not address the specific requirement to compare actual performance against planned
results and accomplishments under each contract.

The lack of clear guidance mandating the above comparison stemmed from the
Mission’s focus on the progress being made towards the achievement of Strategic
Objective (SO) and Intermediate Results (IR) indicators. According to Mission officials,
this emphasis reflected the importance USAID had placed on the use of these indicators
in reporting results. However, these indicators, while useful for program management,
can differ substantially from the variety of outputs expected from various contractors and
grantees, and therefore cannot effectively monitor the achievement of these outputs.

The lack of emphasis on monitoring outputs and comparing planned results to actual
results was further undercut by the cancellation of annual Activity Monitoring Reports
(AMRs) for FY 2006. According to MO 1003, AMRs should be completed annually for
review by Mission management, and CTOs should discuss “progress towards targets”
for the previous fiscal year. However, the Mission did not require CTOs to complete
AMRs for FY 2006 due to other Mission priorities, particularly the completion of a new
operational plan. Furthermore, AMRs completed for FY 2005 contained only a listing of
accomplishments and did not contain a comparison of actual performance against
planned results as required by BOP 311.

Because the Mission’s guidance does not focus on closely tracking contract-related
outputs, this increases the risk that some required outputs may not be achieved and may
be overlooked, especially if the project appears to meeting SO and IR goals. It also
limits the CTOs’ ability to take early action in response to potential implementation
problems.

To ensure that the Mission maintains an appropriate focus on the achievement of
outputs under its grants, contracts and agreements, we are making the following
recommendation:

       Recommendation No. 1: We recommend that USAID/Armenia revise the
       language in its Mission Order 1003 to ensure that (a) program staff
       compare actual performance to planned accomplishments under the
       program’s contracts, grants, and cooperative agreements; (b) the results
       of these assessments are subject to management review; and (c) staff
       use the performance data generated and collected per the implementer’s
       Monitoring and Evaluation Plan to facilitate these assessments.




                                                                                        7
Program Files Were Not Always
Properly Maintained

 Summary: According to MO 1003, CTOs should maintain documentation in the
 program files relating to substantive communications with implementing partners. Any
 significant decisions reached during meetings or phone conversations should also be
 documented in these files. This guidance, however, was not being fully and
 consistently implemented by all Energy and Water Sector Reform Program staff. In
 several instances, for example, the Mission’s official program files did not adequately
 document substantive changes and developments, key decisions and the status of
 activities under the program. These problems occurred as a result of a lack of
 management attention and oversight to ensure implementation of the MO 1003
 requirements. As a result, the program files did not provide a complete history of the
 program and were, therefore, of limited use as a management tool in facilitating
 program oversight and ensuring program continuity when personnel changes occur.

The monitoring procedures outlined in MO 1003 include detailed guidance related to the
proper maintenance of the program files. According to MO 1003, documentation relating
to substantive communications with implementing partners must be maintained in the
official award files. Further, any significant decisions reached during meetings or phone
conversations should also be documented in these files. If such decisions or
communications are conveyed through an e-mail exchange, these can be documented
by simply printing out the e-mails and including them in the official files. MO 1003 also
states that site visits should occur at least quarterly, and that these site visits must be
documented through trip reports. Such reports, according to the guidance, serve to
confirm appropriate monitoring and oversight of USAID-funded activities, while also
providing a clear audit trail for program monitoring activities.

This guidance, however, has not been fully and consistently implemented and adhered
to with regard to the Energy and Water Sector Reform Program. Rather than
maintaining all of the required records centrally in the official program files, each CTO
maintained project files differently with correspondence and documentation stored as
hard copies in cabinets, on personal drives, as saved email, or on shared drives.
Further, trip reports were not always being prepared and documented as required; this
issue was reported during the Mission’s most recent FMFIA review as well as during the
previous Mission Management Assessment performed in 2005.

In addition, documentation related to significant program operations and changes was
not always readily available in the project files. For example, there was an absence of
records documenting: (1) reductions in funding for energy assistance demonstration
projects, (2) the addition of the Lake Yerevan Study to the Water Development Project’s
work plan, and (3) key developments related to personnel and work plan modifications
during the Improved Heat Sector Management Project. These discrepancies occurred
as a result of a lack of management attention and oversight towards ensuring
compliance with the documentation requirements specified in MO 1003.

Since the Mission’s official program files do not always adequately document
substantive changes and developments, key decisions, and the status of activities under
the program, the files do not provide a complete history of the program. As a result, this
limits the files’ usefulness as a management tool and archive, which can facilitate
management needs and ensure continuity when personnel changes occur.
                                                                                         8
To ensure that the Mission’s official program files are maintained in accordance with the
guidance, we are making the following recommendation:

       Recommendation No. 2: We recommend that USAID/Armenia take
       appropriate steps to ensure program staff fully implement and adhere to
       the documentation requirements contained in Mission Order 1003.




                                                                                       9
EVALUATION OF
MANAGEMENT COMMENTS
In its comments on our draft report, USAID/Armenia concurred with our findings and
recommendations. In addition, the Mission provided evidence of specific actions taken
to address our concerns.

To address our recommendation relating to the collection and evaluation of performance
data, USAID/Armenia revised Mission Order 1003 to include an addendum requiring
program staff to perform periodic comparisons of expected and achieved results under
each award. The new guidance includes a requirement for a thorough evaluation of the
implementer’s Monitoring and Evaluation plans, and clearly states that the collected data
will be presented to Mission management during the annual portfolio review process.

To address our recommendation concerning the documentation of program activities,
USAID/Armenia initiated spot check reviews to be performed annually on all of its official
project files to ensure that program documentation is properly maintained in accordance
with the requirements outlined in Mission Order 1003, with the results of these reviews
discussed at Mission Control Review Committee meetings. The Mission also developed
an annual schedule indicating the timing of these individual reviews.
We believe that these actions appropriately address our concerns. Consequently, we
consider that final action has been taken on our two recommendations. The Mission’s
comments are included in their entirety as Appendix II.




                                                                                       10
SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Frankfurt audited USAID/Armenia’s Energy and
Water Sector Reform Program activities in accordance with generally accepted
government auditing standards. The purpose of the audit was to determine whether
USAID/Armenia’s Energy and Water Sector Reform Program activities had achieved
planned outputs for promoting reliable and affordable access to essential utilities.

For each major project, we selected the most recently completed annual work plan and
evaluated all planned activities contained in these work plans (a total of 145 activities).
Because the projects were initiated at different times, the performance period covered by
these various work plans ranged from August 2005 to January 2007.

In planning and performing the audit, we assessed management controls related to the
development, implementation, use and management review of performance measures
and indicators. Specifically, we reviewed:

   •   The Mission’s current Performance Management Plan (PMP);

   •   ADS and Bureau and Mission Order requirements related to performance
       measures; and

   •   The Mission’s FY 2006 FMFIA process and results.

Additionally, we considered relevant prior audit findings from similar audits completed at
USAID/Egypt and USAID/Azerbaijan. We also reviewed the Mission’s performance
indicators for program activities as well as the performance data collected and reported
under these indicators as part of the FY 2005 Annual Report.

We conducted the audit at the USAID/Armenia Mission in Yerevan, Armenia and at
various implementing partner site locations in Armenia from January 15 to February 8,
2007 and from March 5 through March 21, 2007.

Methodology
To form a conclusion about whether USAID/Armenia’s Energy and Water Sector Reform
Program activities were achieving their planned outputs, we first compared the planned
work outlined in the implementers’ contracts, grants, and cooperative agreements to
their respective work plans to ensure consistency. We then reviewed the work
accomplished as reported in the implementers’ reports and compared actual
accomplishments against the specific outputs as defined in contracts and approved work
plans, such as the completion of energy demonstration projects and the renovation of
school heating systems. To assess the Mission’s compliance with requirements to
document program performance, we reviewed correspondence, assessment reports,
and other data maintained by the Mission. We also tested a judgmental sample of
outputs under each project and verified reported progress related to these outputs during
                                                                                        11
site visits and interviews with each implementing partner. Based on the collective
results, we determined the progress of each project toward the achievement of planned
outputs and overall objectives.

In addition, we reviewed applicable policies, procedures and management controls
related to the management for results, including ADS 202, ADS 203, Bureau Operating
Procedure 311, and Mission Order 1003. We then evaluated the Mission’s compliance
with relevant program management controls and policies.

In assessing each project’s progress toward its overall objectives, we established a
materiality threshold of 75 percent. That is, if a project’s work plan adequately reflected
the overall contract goals, and the contractor had achieved at least 75 percent of its
planned outputs during the audit period, the project was judged to be making acceptable
progress towards its overall objectives.




                                                                                        12
                                                                           Appendix II



MANAGEMENT COMMENTS



TO:           Regional Inspector General, Frankfurt, Gerard M. Custer

FROM:         USAID/Armenia Mission Director, Robin Phillips /s/

CC:           M/CFO/APC, USAID/Washington, Karon Wilson

DATE:         May 24, 2007


SUBJECT: USAID/Armenia’s Energy and Water Sector Reform Program –
Mission Comments on Draft Audit Report No. 8-111-07-002-P

Thank you for the opportunity to review the subject draft report. We agree with the
findings and recommendations, and welcome the opportunity to improve our systems.
Corrective measures have already been established to address the recommendations,
and we have included documentation with this memo in support of the actions taken.
Our comments on the two audit recommendations follow:


Recommendation No. 1: We recommend that USAID/Armenia revise the
language in its Mission Order 1003 to ensure that (a) program staff
compare actual performance to planned accomplishments under the
program’s contracts, grants, and cooperative agreements; (b) the results of
these assessments are subject to management review; and (c) staff use the
performance data generated and collected per the implementer’s
Monitoring and Evaluation Plan to facilitate these assessments.

We revised Mission Order 1003 (see Attachment A) to include an addendum requiring
program staff to perform periodic comparisons of expected and achieved results under
each award using performance data collected by the implementers, and report the
results of these assessments to the Mission management. Consequently, we request
that this recommendation be closed upon issuance of the final audit report.

Recommendation No. 2: We recommend that USAID/Armenia take
appropriate steps to ensure program staff fully implement and adhere to
the documentation requirements contained in Mission Order 1003.



                                                                                   13
Technical office directors will conduct periodic verification of official project files to
ensure documentation is maintained in accordance with the requirements outlined in
Mission Order 1003. We have prepared a schedule (see Attachment B) for these spot
checks. In addition, the Mission will incorporate spot check reviews as part of the annual
FMFIA process and the results of these reviews will be discussed at the Mission Control
Review Committee meetings. Consequently, we request that this recommendation be
closed upon the issuance of the final report.
We would also like to mention that the Mission is currently recruiting for the Monitoring
and Evaluation Officer who will work to further strengthen mission performance
monitoring processes.
Finally, we would like to thank the RIG auditors for their collaborative and supportive
approach during the execution of this audit. We believe that the draft report is fair and
balanced and will provide a positive contribution to our development effort here in
Armenia.




                                                                                            14
